November 5, 2020
Via Electronic Filing and Regular Mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-510, IQVIA, Inc. v. Florence Mussat, M.D, S.C.

Dear Mr. Harris:
I am counsel of record for the Respondent in this case. I hereby seek an extension of the
time to file a response to the petition for certiorari. The response is currently due on November
16, 2020. For the following reasons, I request a 30-day extension to and including December 16,
2020. This request is unopposed by the Petitioner.
I will have principal responsibility for preparing the brief in opposition to the petition.
Because I was only recently retained in this case, my colleagues and I will require additional
time to prepare an adequate response to the petition. Furthermore, we have several upcoming
deadlines and obligations that, in addition to the upcoming holiday season, will prevent us from
devoting adequate time to the response absent an extension. These include:
A reply brief due in the Ninth Circuit on November 4 (in Beaty v. Ford); an opening brief
due in the Third Circuit on November 9 (in Travers v. Fedex); a reply brief due in this Court on
November 9 (in Lombardo v. City of St. Louis); an opening brief due in the Ninth Circuit on
November 9 (in Peck v. Swift Transportation and Mares v. Swift Transportation); a reply brief
due in the Ninth Circuit on December 4 (in Sponer v. Wells Fargo); an opening brief due in the
Ninth Circuit on December 14 (in Moser v. Benefytt); and a reply brief due in the Seventh
Circuit on December 18 (in Bilek v. FIC). A 30-day extension will allow us to balance these other
responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

Matthew Wessler
Gupta Wessler PLLC
1900 L Street NW, Suite 312
Washington DC, 20036
matt@guptawessler.com
Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

Daniel A. Edelman
Heather Kolbus
Edelman, Combs, Latturner
& Goodwin, LLC
20 S. Clark Street, Suite 1500
Chicago, IL 60603
dedelman@edcombs.com
Curtis C. Warner
5 E. Market Street, Suite 250
Corning, NY 14830
cwarner@warner.legal

cc: Counsel of Record

Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

